Department of Health and Human Services

        OFFICE OF
  ‘INSPECTOR GENERAL




    MEDICARE RISK ~~(h:
 BENEFICIARY ENROLLMENT AND
  SERVICE ACCESS PROBLEMS




                  $W7C*
             +@           “%+
         *+4



              4
         $                      JUNE GIBI/S BROWN
         %
         5
          %**
            %a
                      CL	       Inspectoq . General

                                     AP12q.41995
                                   OEI-06?91-00731
Specillc details of problem extent and intensiveness among HIWls follow.

Fedend Enrollment Procedures

Asking beneficiaries about their health problems during application was a fairly widespread
and intensive problem.

Being required to take a physical examination before joining the HMO was relatively
infrequent.

Understanding of HMOS

Lack of awareness of appeal rights was the most widespread and intensive problem, while
beneficiary misunderstanding of other requirements was cmnmon but less severe.

Medical Appointments

In about two-thirds of HMOS, beneficiaries experienced mcxkwite to minor dil%culties with
medical appointments.

Service Access

Perceived service access problems were fairly widespread and moderately intensive for
disenrollees, but relatively infrequent for enrollees.

Personal Treatment

The most widespread and intensive personal treatment problems among HMOS were the
failure of primary HMO doctors to take beneficiary complaints seriously and perceptions that
hoMing down the cost of medical care was more important than giving the best medical care
to their primary doctors and/or their HMO.

Beneficiaries’   Responses   Varied According to HMO Model Type and Profit Status.

Beneficiaries in group and staff model HMOS were more likely to report being required to
have a physical examination at application, not being aware of appeal rights, and having
problems with appointments.

Beneficiaries in non-profit HMOS were more likely to report being required to have a
physical examination at application, not beiig aware of neediig a referral to see a specialist,
and having problems with appointments.




                                                 ii
CONCLUSIONS

Beneficiary-level data linked with respective HMOS provides additional insights for
examining HMO enrollment and service acczss problems. lt may prove especially useful in
focusing monitoring efforts. Determining a problem’s distribution cmdd either signal the
need for progmm-wide monitoring or for targeting speciilc HMOs. A problem’s degree of
intensity can also be determined. However, to best utdiie this knowledge, HCFA should
establish acceptable tolerance ranges for the,se indkators, since a prohiem may be pervasive
but not critical.

Additionally, certain structural factors, e.g., non-profit status and group and staff models,
may affect beneficiaries’ perceptions of HMO semice. Such knowkdge can help target
monitoring efforts for HMOS with these characteris&s.

For an HMO-level analysis, our experience suggests HCI?A may want to stratify by
Medicare enrollment size, as well as for selected structural characteristics, e.g. model type
and profit status, when surveying HMO beneficiaries.




                                                 .. .
                                                 111
                     TABLE                 OF         CONTENTS

                                                                                                         PAGE

EXECUTIVE        SUMMARY          . . . . . . . . . . . . . . . . ..-.     -.”.    . . . . . . . . . . . . . i


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS      . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . 4


 �   Overview     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


 �   Federal Emollient      Procedures.       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


 �   Understanding ofHMOs           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


 �   Medical Appointments . . . . . . . . . . . . . . . . . . . . . . .. . . .           ...........5


 �   Service Access     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...........6


 �   Personal Treatment       . . . . . . . . . . . . . . . . . . ..-    -. .- . . . . . . . . . . . . ..’7


 �   Model Type andProfitStatus.            . . . . . . . . . . . . . . . .. . . . . .     . . . . . . ..”.’7


CONCLUSIONS           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .9


ENDNOTES        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          10


APPENDICES


A:
 Distribution and Problem Intensity           . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

B:
 StatisticaUy Signiilcant Structural Factors          . . . . . . . . . . . . . . . . . . . . . . . ..B-1

c:
 Profile ofHMOs       --Structural Factors . . . . . . . . . . . . . . . . . . . . . . . . . ..C-1

D:
 Statistically SigtilcantDiffemnces          forKeyQuest.ions         . . . . . . . . . . . . . . . . D-1
                             INTRODUCTION


PURPOSE

To provide HMO-level data to identify distribution and intensity of enrollment and service
access problems.

BACKGROUND

In a previous OIG report, “Beneficiary Persptives of Medicare Risk HMOS” (OEI-06-91-
00730), we reported results from a survey of beneficiaries enrolled in Medicare risk HMOS.
Using HCFA databases, we selected a stmdfkd, random sample of 4,132 enrollees and
disenrollees from 45 Medicare risk HMOS. Since our primary focus was Medicare
beneficiaries’ perceptions, we collected information directly from them. 1 We surveyed both
enrollees and disenrollees to compare their responses, and thus, to gain greater insight into
HMO issues. We did not attempt to validate their responses thrcmgh ~ecord review or HMO
contact.

Generally, beneficiary responses indicated Medicare risk HMOS provide adequate service
access for most beneficiaries who have joined. The majority of enrollees and disenrollees
reported medical care that maintained or improved their health, timely appointments for
primary and specialty care, good access to Medi~     covered services and to hospital,
specialty and emergency care, and sympathetic personal tmntment by their HMOS and HMO
doctors. In some instances, however, enrollees and disenrollees differed markedly in
reporting their HMO experiences. When this happened, we described the difference as a
point of comparison.

However, our survey results also indicated some serious problems with enrollment
procedures and service access that, we believed, required HCFA’S attention. Three items
need immediate exploration: 1) better informing of beneficiaries about their appeal rights as
required by Federal standards; 2) carefully examining service access problems reported by
disabled/ESRD beneficiaries, an especially vulnerable group; and 3) monitoring HMOS for
inappropriate screening of beneficiaries’ health status at application. Other service access
issues meriting examination by HCFA in the near Iiture concerned beneficiaries’ perceptions
of problems with making routine appointments, declining health caused by HMO care, and
HMOS’ refusal to provide certain services.

Our intent has been not to prescribe spedic corrective actions, but to identify, based on
information from beneficiaries, areas apparently needing improvement and to suggest
techniques HCFA can use to further monitor these areas. In addition, we wanted to explore
if linking beneficiary responses to their respmtive HMOS could show whether or not problem
areas occurred program-wide or were only isolated within speciilc HMOS. Also, at the
HMO-level, we wanted to determine problem intensity or degree of severity among HMOS.




                                               1

Construction of an HMO-level alu+a.base

To construct-an HMO-level database, we aggregated our original individual-level dataz to
link beneficiaries with their respective HMOS. FCNcontinuity and consistency with our first
report, we separated the HMO-level data by arcd.lees and disenrdees.      Also, since our
individual-level data was a disproportionate sample of enroilees and disenrollees, we had to
account for varying response rates per HMO. Enrollees we~e distributed among all 45
HMOS, but disenrollee representation was Iiited.      Four HMOS had less than 20 of 50
disenrollees return their survey. Thus, for disenrollees on.iy,.these 4 HMOS were dropped
from further analysis. Also, 5 other HMOS had less than 14 diierdlees       in their total
population when we sampled. Nevertheless, we still included these 5 .HMOS in our analysis
if 2 conditions were met. First, at least 75% of their disendkzs mtumed a usable survey.
Second, for those remaining, at least 75% of their disenmllees answered on a question-by-
question basis. It was not our intent to generalize our findings to all Medicare risk HMOS
but, rather, to use our data to detect trends within our own sample, especially to illustrate the
utility of HMO-level analyses.

Problem Distribution and Intensiiy

First, for each question, we determined if an HMO had at ieast one beneficiary report an
incidence. This process-counted the number of involved HMOS and established how widely
distributed the -problem was among them. Second, we calculated the proportion of negative
responses per question for all beneficiaries within eaeh HMO. Third, we constructed
f~uency ranges which provided a common descriptive fimnework to compare problem
intensity or degree of severity among HMOS. The ranges included no beneficiaries (O%) in
each HMO reporting the problem, 1% to 10% of beneficiaries, 11% to 25% of beneficiaries,
26% to 50% of beneficiaries, or more than 50% of beneficiaries. Fourth, we counted, per
question, how many HMOS fell into each of these mnges. Tables showing specillc
distribution and degree of intensity are categorized in Appendix A as health screening,
understanding of HMOS, medical appointment problems, perceived service access problems,
and perceived personal treatment problems.

Dejbulion of Structural Factors

We selected 5 structural factors to examine how beneficiaries’ perceptions may be affected:
HMO model type3, profit status, contracted services4, location in multiple States, and
Medicare enrollment size. We used several sources to identify these characteristics. HMO
model type was obtained from the HCFA monthly report of Me&cam prepaid health plans
for February 1993. Profit status, contract services, and location in 1 or multiple States were
found in the “1992-1993 Managed Care Report” section of Business Insurance (December
18, 1992). We alSOUSedthe HCFA’S Group Health Plan (GHP) database as of February 28,
1993 to obtain information on Medi~      enrollment sizes (See Appendix C for a profde of
HMOS). To determine the signifkance of these structural factors, we conducted various
statistical analyses.s


                                                2
This inspection was conducted in accordance with the Quali~ Smn@ds for Inspections
issued by the President’s Council on Integrity and Efficiency.


           —




                                             3
                                              FINDINGS


OVERVIEW
Our analysis of beneficiary problems with Federal enrollment puc.edures, understanding of
HMOs, medical appointments, service access, and personal treatment suggested two general
findings:

Most Reported Problems are Widespread                   Among the Sampled N&dkare                Risk HMOS,
but at Varying Degr-  of Intensity.

Disenrollees       Generally Experienced        these Problems at a Higher Degree of Intensity than
Enrollees.

Speciilc details of problem extent and intensiveness among “~C?s follow.

Federal Enrollment          Procedures’

Asking beneficiaries about their heailh problems diming application was a fairly widespread
and intensive problem. (See Appendix A, T&k 1.)

Health Screening (37 % of enrollees and 39% of disenrollees)~

   �	    In over two-thirds of the HMOS, between 26% to more than 50% of both enrollees and
         disenrollees said they were asked about health problems during application.

Being requind to take a physical examin&”on before joining the HMO was relatively
injk?quent.

Reuuired a L)hvsica.1exam (4% of enrollees and 2% of disenrollees)

   .	 Enrollees in a little over one-half of the HMOS and disenrollees in slightly more than
      one-third of the HMOS said a physical was required to join. Usually such reports were
      of minor intensity (<10%).




        ‘ The percentage of enrollees and disenrollees who responded negatively to each issue.




                                                            4

Understanding     of HMOS

Lack of awareness of appeal rights was the most widespread and intensive problem, while
beneficiary misundemtanding of other membemhip requirements was present but less
severe. (Sei?Appendix A, Tdle 2.)


AIIDtXil rkzhts   (26% of enrollees and 32% of disemwlkzs)

  .	 From 11 % to over 50% of beneficiaries in more than 90% of the HMOS reported they
     were not aware they had a right to appeal their HMO’S refhsd to provide or pay for
     services.

S-pecialist referm.1 (11% of enrollees and 15% of disenrollees)

  .	 Not being aware of needing a primary doctor referral to ,see a specialist was more
     intensive for disenroilees. From 11% to 50% in over two-thirds of the HMOS reported
     a lack of awareness of this process.

Abil.itv to back-out (11% enrollees and 18% of disenrollees)

   . More disenrollees were not aware of their ability to back-out of. enrollment after
       application. Eleven percent to 50% of disenrollees in nearly two-thirds of the HMOS
     reported this lack of knowledge.

Lock-in (4% of enrollees and 7% of disenrollees)

   .	 Beneficiaries in over two-thirds of HMOS reported they were not aware of being
      ~stricted to HMO doctors and hospitals. However, this situation represents <10% of
      beneficiaries in each HMO.

Medical Appointments

In about two-thirds of HMOS, beneficiaries experienced moderale to minor &ficuilies with
medical appointments. (See Appendix A, Table 3.)

A-ppointment when verv sick (6% of enrollees- and 12% of disenrollees)

   .	 Not being able to get an appointment within 2 days when very sick was found in two-
      thirds of the HMOS. However, it was worse for disenrollees, of which 11% to 50% in
      about half of the HMOS reported the problem.




                                               5�
Atmointments with Drirnarv HMO doctors and specialists. (Dc@or appointment, 15% of
enrollees and 18 percent of disenrollee~ specialist appointment, 19% of enrollees and 24%
of dkenrollees)

  .	 In at leZst 58% of the HMOS, from 11% to over 50% of benefkia.ries said they waited
     more than 12 days for a scheduled appointment with their primary HMO doctor. For
     scheduled appointments with a specialist, disemdkes indicated longer waits. In half of
     the HMOS, from 26% to over half of the disc-a.dkes repmted this situation.

Wait in doctor’s office (5% of enrollees and 13% of disenrolks)

  .	 More disenrollees waited longer than an hour in the office to see their primary HMO
     doctor. In about half of the HMOS, fmrn 11% to 50% of disenrollees reported waits
     this long.

Busv tehmhone lines (10% of enrollees and 13% & di,senrollees)

  .	 In more than one-third of the HMOS, from 11% to 50% of beneficiaries said
     consistently busy telephone lines caused them sometimes to give up scheduling an
     appointment.

Service Access

Perceived sern”ce access problems were fin”rfywidksprwd and modinately intensive for
disenrollees, but relatively injiequent for enrollees. (See Appen@ A, Table 4.)

Sou~ht out-of-clan medical care (7% of enrollees and 15% of disenrollees)

  .� In 68% of the HMOS, from 11% to 50% of disenrollees said they sought out-of-plan
     medical care, excluding dental, routine eye, and emergentiurgent care.

Not referred to a smcialist   (4% of enrollees and 14% of disenrollees)

  .� In 52% of the HMOS, from 11 % to 50% of disenrollees said their doctor sometimes
     failed to refer them to a specialist when needed.

Failed to sret needed Me&a.re services (4% of enrollees and 12% of disenrollees)

   .	 Ahnost half of the HMOS had from 11 % to 50% of their disenrollees saying their
      primary HMO doctors failed to provide needed Me&care services.

Health Status Worsened    (2% of enrollees and 11% of disenrollees)

   .	 More disenrollees reported a decline in health status. In 40% of the HMOS, from 11%
      to 50% of disenrollees reported the medical care they received from their HMO caused
      their health to worsen.


                                                6�
Personal Treatment

 lle most widespread and intensive personal treatment prwblems among HMOS were the
ftilure of primary HMO doctom to take benejic%wy complaints seriously and perceptions
 that prima~doctors and HMOS sometimes place too much emphu.sis on hokling down the
 cost of care. (See Appendix A, Tdle 5.)


Comr)laints not taken seriously (12% of enrollees and 25% of di,serwollees)

   �
   In over 80% of the HMOS, from 11% to mom than 50% of disemrollees, as compared
        to 11 % to 25% of enrollees in over half of the 14MOS, reported their complaints were
        not taken seriously by their primary HMO doctor.

Doctor holdinp down the cost of medical care (7’%of enroilees and 25% of disenrollees)

  .	 In over 80% of the HMOS, from 11% to more than 50% of disrmrollees, as compared
     to 11% to 25% of enrollees in more than a third of the HMOS, thought holding down
     the cost of care was most important to their primary HMO doctor.

HMOS holdimz down the cost of medical care (15% of enrollees and 35% of disenrollees)

  .	 In over 90% of the HMOS, from 11% to more than 50 YO of disenrollees, as well as
     11% to 50% of enrollees in over two-thirds of the HMOS, indicated that holding down
     the cost of medical care was more important than giving the best mdlcal care to their
     HMos.

Beneficiaries’   Responses   Varied According to Model Type and Profit Status.

Benefi&uies in group and s@# mo&l HMOS were more likely to repoti being required to
have a physical at application, not being aware of appeal rights, and having difficulties
with appointments. (See Appendix B.)

  ~                   exam. Enrollees in staff model HMOS were more than 2.5 times
  more likely than enrollees in other models to say a physical was required prior to
  enrollment.

  Disenrollees in group model HMOS were 3 times more likely than disenrollees in other
  models to say they were required to take a physical.

  Ameal rhzhts. More disenrollees in group model HMOS were almost twice as likely to
  say they were not awzue of their appeal rights.

  Appointment with Drima.ry HMO doctor. Enrollees and disenrollees in a group model
  were almost 2 to over 3 times more likely than their counterparts in other models to
  indicate waiting longer than 12 days for a scheduled primary doctor appointment.


                                                 7
  ADDOhbIent    with s~ecialist. Enrollees in group models wem more likely than enrokes in
  other models to say they waited longer than 12 days for an qpoin~ment with a specialist.
  For disenrollees, those in a group model were 2 times more likely than other disenrollees
  to report such a wait.

  Atmointment when ve rv sick. Disenrollees in a group model wem twice as likely as
  disenrollees in other models to report having difilculties getting an appointment with   2
  days when very sick.

  Busv telmhone lines. 13nrollees in a group model were at least twice as likely as enrollees
  in other models to report sometimes giving up making an appointment because of
  consistently busy telephone lines.

Benej?ciarres in non-profi HMOS were more likely to rqxm? being required to have a
physical examiti”on at application, not being aware of needing a specialist referral, and
having problems with appointments. (See Appendti B, Table 2.)

  Reuuired a llhvskd. Disenrollees in non-profit HMOS wem at kast twice as likely as
  disenrollees in for-profit HMOS to say they were required a physical examination for
  application.

  Understandimz of HMOS. Both enrollees and disenrcdlees in non-profit HMOS were over
  1.5 times more likely than beneficiaries in for-profit “HMOSto say they were not aware of
  the need for a specialist referral.

  Enrollees in non-profit HMOS were almost 2 times more likely as enrollees in for-profit
  HMOS to say they were not aware they could back-out of enrollment.

  Appointment with Drirnarv HMO doctor. Both enrollees and disenrollees in non-profit
  HMOS were almost twice as likely as those in for-profit HMOS to say they usually waited
  more than 12 days for a scheduled appointment with their primary HMO doctor.

  Armointment with a spec ialist. Both enrolkes and disenrollees in non-profit HMOs were
  over 1.5 times more likely as beneficiaries in for-profit HMOS to say they waited more
  than 12 days for a specialist appointment.

  Busv tekmhone lines. Enrollees in non-profit HMOS were at least 2 times more likely as
  enrollees in for-profit HMOS to say they sometimes gave up on making an appointment
  because of busy telephones lines.




                                               8

                               CONCLUSIONS�


We found th~t using beneficiary-level data linked back to the HMO provides additional
insights for examining HMO enrollment and service access issues. This type of information
may prove especially useful in focusing monitoring efforts. For example, most of the
problem areas we found were distributed throughout the sampled HMOS and were not just
isolated incidence. This pervasiveness could signal the need for program-wide monitoring
efforts. Additionally, this level of data could be used to pinpoint speciilc problematic HMOS
and indicate when corrective actions should be initiated.

HMO-level analysis can also show a problem’s degree of in$ensity. For example, for our
sampled HMOS, we would focus program-wide attention on screening for health status at
application, not making beneficiaries aware of their appeal rights, and not taking complaints
seriously. Also, for disenrollees only, we would focus program-wide attention on service
access problems. However, to best utilize knowledge of problem intensity, we suggest
HCFA establish acceptable tolerance ranges for these indicators, since a problem may be
pervasive but still not be seen as critical.

Additionally, our analysis suggests that certain structural factors also impact beneficiaries’
perceptions of HMO service. For example, of the structural factors we examined, group and
staff model,. as well as non-profit status, made a. signifkant difference in. how beneficiaries
experienced certain problems. This type of knowledge could help target monitoring efforts
for HMOS with these characteristics.

For an HMO-level analysis, our experience suggests HCFA may want to stra@ by
Medicare enrdrnent size, as well as for selected structural characteristics, e.g. model type
and profit status, when surveying HMO beneficiaries.

Additional   Office of Inspector General Work

Using our beneficiary survey data, we also plan to produce a report exploring the value and
use of disenrollment rates as an HMO performance indicator, including an analysis of the
most significant reasons for beneficiary disenrolhnents.




                                                9

                                  ENDNOTES

1. We did not contact HMOS or their staffs, nor did we attempt to assess the quality or
propriety of-medical care rendered by the HMOS to these beneficiaries. Additionally, we did
not specillcally ask beneficiaries about their satisfaction with the HMOS, as the concept of
satisfaction is less objective than, and sometimes independent of, the issues of membership in
a Medicare risk HMO.

2. We selected a stratifkl random sample from HCFA’S Group Health Plan (GHP) data
base. First, we sampled 45 HMOS from the 87 HMOS under a risk contract with HCFA as
of February 1993. Beginning with the GHP data, we counted the number of enrollments
occurring within calendar years 1991 and 1992. For this cohort, we then calculated the
proportion of disenrollments within the following 12 months. Based on this disenrollment
rate, we divided the 87 risk HMOS into three stmta of 29 HMOS each. Within each strata,
we selected 15 HMOS by simple random sampling. Second, from each sampled HMO, we
randomly selected 50 Medicare beneficiaries who were enrolled as of February 28, 1993 and
50 who had disenrolled between November 1992 and February 1993 inclusive. When the
total number per HMO for either group was less than 50, we selected them all. Using
HCFA’s Enrollment Data Base, we excluded, from the sampling universe, beneficiaries who
had died or who appeared as current enrollees, but had actually disenrolled since the last
update to the GHP fde. This process resulted in 2,217 enrollees and 1,915 disenrollees for a
total of 4,132 beneficiaries. A total of 2,882 surveys were deemed usable, yielding an
unweighed return rate of 70% overall, 77% for enrollees ~= 1,705) and 61% for
disenrollees (N= 1, 177).

3. HMO model types are divided into three categories. Group models contract with
independent, multispeciaity physician groups. Individual practice associations (IPAs) contract
with independent physicians or small, single specialty physician groups who also maintain
private practices co-jointly with their HMO contract. Staff models directly employ salaried
physicians to serve patients.

4. Contract services refers to whether or not an HMO formalizes an agreement with another
established HMO to provide services.

5.	 We categorized Medicare enrollment size as: 1) very small, with a total enrollment of
less than 1000; 2) small or medium, with a total enrollment between 1000 and 15,000; 3)
large, enrollment between 16,000 and 31,000; and 4) very large, greater than 31,000.

6. TO test signifkant differences for each structural factor per question, as well as between
enrollees’ and disenrollees’ responses per question, we used one or mom of the following
programs from SPSS for Windows (SPSS, Inc. 1993): 1) MBANS which calculates a
standard analysis of variance table; 2) Independent-Samples T TEST which computes
Student’s t; and 3) CHAID (Chi-square Automatic Interaction Detection) which finds
statistically signifkant subgroups.




                                               10
7.	 Using Federal regulations, we measured beneficiaries’ enrollment experience with health
screenings and understanding of HMO membership. Strictly speaking, HMOS should have
no negative experiences reported in these areas. Possibly, smne HMCISconduct health
assessment interviews shortly after enrollment and some benefkiar-y responses may refer to
such assess~nts.    If so, our data may be somewhat inflated.




                                              11
                                               APPENDIX                            A


                    —
                                           PROBLEMDISTRIBUTIONANDWTENWIT

                                                TABLE1. HealthSemen@
                                                              DistributionAmong HMO&
                        r
                                                1%to   10%of           11%to 2s%of          26%@50%of         >50%of
    be-es                   O%of Beneficiary     Bendicisries          BedkiarA             Bedicldes       Beneficiaries
       Responding                                                                                              in... &
                                 in... 4            in... 4              m... J                k.. . J

   b         Were asked at application about heallh problems, exchuiiag kidney fhdurw and hospice          care.
   Enrdlea 37 %                                    2 HMos               12 HMOS!K             19 HMos         12 HMos
     (N=418)                                        (4%)                   07%)         I      (42%)           (27%)

  Dlseslrdlees 39%                                  1 Hh40               8 Hlms               M I’iMos        14 HMos
      (N=276)                                        (3%)                 (21 %)               @!J%)           (36%)

   b         Were required to have a physical examination before joining the HMO.

    Enrollees 4%
      (N=57)

   Disenmllees 2 %
                        I Zlmdoa  (44%)

                                i4 HMO
                                                  20 HMos
                                                    (44%]

                                                   14 HMos
                                                                         4 HMos
                                                                           (9%)

                                                                         lHh40-
                                                                                               1 Hh40
                                                                                                Q%)


       (-N=20)                    (62%)             (36%)                 (2%)          I

*Note: N= 45 HMOS for enrollees; ‘N” varies for dkenrollees               (see Methodology section, page 2 of this report).
Also, percentages may not equal 100 % due to rounding.




                                                                A-1

                                            TABLE2. Understa.mihwof HMOs

                                                          Distrmutiorl      Among XMOS*

                                               1% to 10% of          ll%m25t6Qf                 26%U*50% of               >50% of
    Beneficieri&      O% of Beneficiaries      Beneficiies                                      Bae4auies               Beneficiaries
    Responding                                                                                                             in... 4
                            m... J               In...
                                                 “4                      ill... J                  k     .&

   b       Did G     know they had a right to appeal an HMO’S refwd                 to provti    or poy for setvices.

   Enrohes 26 %                                  1 HMo
     (N=381)                                      (2%)

  Disenroilees 32%          1 HMo                2 HMos
      (N=250)                (3%)                  (5%)
                                                                       ‘z                  1       iaziiC
   b      Did ~t     know they needed a referrtd jbm       thekgnimary        HMO doc.tar #u see a specidi.rt.

   Eocollees 11%           3 HMos               22 H&me                  M Hh’ms                   2 XMos
     (N=176)                 (7%)                 {49%)                                    1         [4%)
                                                                          (40%)

  Dlsenrollees 15%         4 HMos                9 HMos                22 HMOS                     4 HMos                  1 HMo
      (?’J=151)             (lo%)                 (23%)                  (5s%)                      {)0%)                   (2%)

   b      D&i @      know they could change their minds about enrolilng in #Jte HMO i@er they appltid (3ack-
          Out).

   Enrollees 11%           2 HMos               21 HMos                20 HMffs                     i HMo                  1 HMo
     (N= 133)                (4%)                 (47%)                  (44%)                       0%)                    (2%)

  Disenrollees 18%         4 HMos                9 HMos                  13 HMrh                   12 HMos
      (N=135)               (11 %)                (24%)                   C34%)                     <31%)

   �      Dhi ~      know they could only use HMt2desigrurted         a%ctors ad         hoqikdr       (lock-ti).

   Enrollees 4%           15 HMos               ?7 Hhms                  3 Hh40s
     (N=63)                 (33 %)                (60%)                     (7%)

  Disenrollees 7 %         11 HMos              19 HMos                  9 HMos                     1 HMo
      (N=68)                (28%)                (47%)                    (23%)                      (2%)


*NOW N= 45 HMOSfor enrollees;‘N” variex for digenrdees                      (see Methodology section, page 2 of this report).
Also, percentages my not equal 100% due to rounding.




                                                              A-2

                                          TABLE 3. Medical @@n?ment Problems

                                                                 Distribution AmoruzHMCk*
                                                  1%to 10% of             11%tn 2s% of           26% MS50% of            >50% of
    Beneficieriek-       0% of Beneficiaries      Beneficiaries           Lkaam&S                BflMriasies            Beneficiaries
    Reqnding                                                                                        it)-. 4                in... J
                               in... 4’              in... &                 irk... 4

   b       When very sick, was @           able to get a doctor’s appointsnent withiu 3 to 2 dkys.

    Enrollees 6%              17 HMos               19 HMos                 6 HMOS                 3 Hb’fos
                                                                     4
      (N=63)                   (38%)                 (42 %)                  (13 %)                  (7%)

  Disenrdlees 12%             10 Hh40s              8   WOS                 i4 HMa                 4 HMos
      (N=60)                   (28 %)                   (22%)                 @9%)                  ($1%)

   b       For schedlded appointments          with primary H,VO &.I.0.rs, ZSU@ waited more than 12 &ys.

   Enrollees 15%              4 HMos                15 HMos                 N HMOs                  7 HMos                1 Hh40%
     (N=225)                    (9%)                 (33%)                   (40$6)                  (16%)                  (2%)
                                                                                             1
  Disenrolkes 18%             5 HMos                8   WOS                 i7 mm                   7 HMos                  5%
      (N=149)                  (13%)                    (20%)                 @4%}                   (18%)              (N=2 HMos)

   b       For scheduled appointments          with specialists,    WU@     wdted       mare than E dhys.

   Enrollees 19%               1 HMo                11 HMos                 22 HMos                 9 Hh’los              2 HMos
     (N=222)                    (2%)                 Q4%)                     (49%)                  (20%)                  (4%)
                                                                                             I
  Dkencollees 24%              1 HMo                6   Hh/K)s              9 mms                  19 I’m.’Kls            2 HMos
     (N=153)                    (3%)                    (16%)                (24%)                  (51 %)                  (5%)

   b       Usually waited 1 hour or more in the ojj%e to see prinuuy HMO doctor,

    Enrollees 5%              11 Hh40s              2’7Hrvmll               7 HMos
      (N=80)                   (24%)                  (60%)                  (16%)

  DkenroUees 13%              8 Htvlos              10 HMos                 13 HMos                 5 Hh40s                1 Hh40
     (N=108)                   Q2%)                  (27%)                   (35%)                   (14%)                  (2%)

   b       Conshtently      busy telephone Ities someties          hindered bene’s nratig        appointments.

   Enrollees10%               13 HMos               16 HA@                  10 HA40s                6   i+M@
       (N=85)                  (29%)                 (36%)                   (22%)                      (13%)

  Disenrdkes 13%              12 mms                10HMos                  8   WOS                 6   HMOS
      (N=62)                   (33%)                    (28%)                   (22%)                   (17%)
                     [

*Note: N =45 HMOSfor enrollees; “N” varies for dksmrollees (see ~                                       section, page 2 of this report).
Also, percentages may not equal 100% due to rounding.




                                                                   A-3

                                                           TABLE4. ServiceAccess
                                                                          Distribution Among HMOS*
                                                           1%to 10% of             11%to 25%of         26% to 50% of         >50% of
      Bene&iaries–           0% of Beneficiaries           Benetlciaries           Benefkiarks          -ties               Benefkiies
      Responding                   in... J                    in... &                ill... J             k... 4              in... &

 b             Thought   needed to seek out-of-plan care, excluding dental, rautzhe eye, mwi emergentlurgent care.

      Enrollees 7%                2 HMos                    34 IiMos                 9 HMos
        (N=I08)                     (4%)                      (76%)                   (20%)

  Diseorollem 15%                 3 HMos                     10 HMos                 24 HMOS              3 HMos
      (N=120)                       (7%)                      (25%)                    (60%)                (8%)

     b         Primary   HMO doctor sometimes failed to refer to a spec&u’ist whsn needed.

      Enrollees 4%                11 HMos                    30 HMos                 4 HMos
        (N=66)                     (24%)                       (6?%)                   (9%)

  Dlsenrollees 14%                 8   ~Ch                   11    HMos              16 HMOS              5 Hh40s
      (N=115)                          (20%)                      (28%)               (40%)                (12%)

     b         W         HMO doctor            someties failed       to provide needed Medh.re       services.
      Enrollees 4%                13 HMos                    31 HMos                  1 HMo
        (N=60)                     (29%)                       @9%)                    (2%)

  Disemdees 12%                    5 HMos                    16 IiMOS                16 EIMOS             3 HMos
      (N=105)                       (12%)                     [40%)                    (40%)                (8%)

     b         Medical care received through the HMO caused beneficiaries’                       health to imorove.

      Enrollees 53%                                                                                       19 H.Mos            26 Mck
        (N=772)                                                                                            (42%)                (58%)

  Disenrollea 39%                                             1 HMo                  3 HMos               28 HMas             7 HMos
      @=296)                                                   (3%)                    (8%)                 (72%}              (17%)

     b         Medical care received through the HMO caused bene~iades’                          heailh to stav about the same.

      Eorollees45 %                                                                   1 HMo               31 H&KJs            13 Hh’los
          (N=649)                                                                      (2%)                 (69%]              (29%)

  Dlsenrouecs 50 %                                                                    3 HMos              17 HMos             19 HMos
      (N=383)                                                                           (7%)               (44%)        [      (49%)

      b        Medical   care     received through the HMO caused beneficiaries’                 health to worsen.

         Enrollees 2%             .24HW’           :         20 HMos                  1 HIuo
           (N=32)                   (53%)                      (44%)                   (2%)

     Dissnrollees 11%              13 “kbms            ~      10 Hh40s               12 HMos               4 HMos
         (N=86)          I          ,.(33%)                    (26%)                  (31%)                 (lo%)


*iVote: N= 45 HMOS for enrollees; “N” varies for disertrollees (see Methodology                             section, page 2 of this report).
Also, percentages may not equal 100% due to rounding.




                                                                            A-4

                                          TABLE 5. Pemcmal Treatment

                                                        Distribution Among HMCW
                                            1%to 10% of
    Beneficisriei—    0% of Baseficties
    Rqmuting
                            m... 4
                                            ‘m~y            ~~
   b       Primaty HMO doctor sometimes failed to take berzejicimy’s ?zeailh compkdnts seriously.

   Enrollees 12%                              22 HMos             23 ‘HMos
     (N= 175)                                   (49%)               (51 %)

  Disenrollees 25 %        2 HMos              4 HMOs             14 ?rMOs             19 HMos             1 HMo
      (N=219)                (5%)               (lo%)              (35%)                {4.3%)              (2%)

   �       Most important to primary HMO doctor was ~“ving Ike best medical care possible.

   Enrollees 86%                                                                                         45 HMos
     (N=1197)                                                                                             (100%)

  Dkenrolkes 73 %                                                                      5 HMos             34 HMos
     (N=471)                                                                            {!396)              (87%)

   b       Most importanl to primary HMO doctor was holding down the wst of care.

    Enrollees 7%           4 HMos             25 HMos             16 HMOS
      (N=120)                (9%)               (56%)              (35%)

  Disenrdees 25 %          2 HMos              5 HMos             16 HMOS              13 HMos            3 HMos
      (N=162)                (5%)               (13%)              (41%)                J33 %)              (8%)

   b       Most important to the ~        was givtig the best medical care possible.

   Enrollees74%                                                                                           45 HMos
       (N=1036)                                                                                            (100%)

  Dkenmlks 57 %                                                    2 HMos              12 HMos            25 HMOS
     (N=387)                                                         (5%)               (31%)       I       (64%)

   b       Most important to the ~        was holding down the cost of care.

   Enrollees 15%                              13 Hh’los           27 Iiktf3s           5 HMos
     (FI=213)                                  Q9%)                 (60%)               (11 %)

  Dlsencollees 35 %                            2 HMos              10 HMos             20 HMos            7 HMos
      (N=230)                                    (5%)               @6%)                 (51 %)            (18%)


*lVote:N =45 HMOS for enrollees; “N” varies for diaenrolleea (see Methodolo~            section, page 2 of this report).
Also, percentages may not equal 100 % due to rounding.




                                                          A-5

                                           APPENDIX                       B

                                        SIGNIFICANT STRUCTURAL FACTORS


                     TABLE 1:          ModelTypes - significantDflerellces in lMeanResponses*
                                                       Enrollees                         Dkenrollees
  Benetlciary Responses                       ~A88      Group      StatT         ~AW       Group       Staff

  HEhLTH SCREENING

  Physical exam was required
  before joining.                               3%        4%        11%            2%         6%        2%

  UNDERSTANDING            OF HMOS

  Did @ know they had the right
  to appeal an HMO’s refusal to
  urovidel~ay
           . . for services.                                                      29%        45%       24%

  AwtmmfEm

  For scheduled appointment with
  primary HMO doctors, usually
  waited more than 12 days.                     9%       33%        18%            11%       39%       15%

  For scheduled appointments with
  specialists, usually waited more
  than 12 days.                                14%       31%       23%            21%        42%       21%

  When very sick, was ~ able to
  get a doctor’s appointment within
  1 to 2 &ys.                                                                      10%       21%        9%

  Consistently busy telephone lines
  sometimes hindered bene’s
  making appointments.                          7%        19%       11%

8No&:   My   s~tisti~lY      sidfi~t       &ffemnces at p < .(M are shown. pemen~ges me ‘omdd”
x’k~divid~   ~tice        Association




                                                          B-1

                      TABLE 2: Profit Status - !Yqgnifmt DitTerences in .Meau kiiOIISeS*

                                                           Mean Emolkm                      Mean Dkenrolke
                                                             Resplxtse                         Response

                                                          For-         Noa-                  For-          Non-
 Benefick-y Responses                                     E%dH                              Profit         Profit

 EiVROLLUEiVT
            PROCEDURES

 Were required to have a physical before joining the                                          2%             5%
 HMo.                                                       ——
 lhVDERST~DLVG OF HMOS

 Did ~t know, from the beginning, they must be referred
 to a specialist by their primary HMO doctors.
                                                           9%          i’-}%                 14%            22%

 Dld ~t know they could change their minds shout
 enrolling atler they applied.
                                                           Kl%         !8%



 For scheduled appointments with primary HMO doctors,
 usually waited more than 12 deya.
                                                           16%         27%                    14%           30%

 For scheduled appointments with specialists, usually
 waited more fhan 12 days.
                                                           13%         “23%

 Consistently busy telephone liies sometimes hindered
 bene’s
 making appointments.                                      8%           17%                   8%            20%



*iVote: Only statistically significant differences at p <.05 level are shown.   Percentages are rounded.




                                                          B-2

                                     APPENDIX                   C



                             PROFILE OF HMOS - WRUCTURAL FACTORS

                                                 ENROLLEES                    DISENROLLEES
                                                  in 45 HMOs                    in 41 HMOs*
                                                                         —.
 MODEL TYPE
  � lpA                                             30 HMos                      27 HNIOs
   � Group                                           9 Wos                        9 HMOS
   . staff                                           6 HMos                       5 HMOS
 FOR-PROFIT/NON-PROFIT
  . For-Profit                                      34 HMos                      30 HMOS
  . Non-profit                                      11HMOS           !           11HMOS
 ENROLLMENTSIZE
  � VerySmall(< lK)                                  6   HMOa                     5   HMOS
   . Small to Me&um (1K - 15K)                      28   HMOS                    26   HMOS
   � Iarge (16K - 31K)                               6   HMOS                     5   HMOS
   . Very Large ( >3 lK)                             5   HMOS                     5   HMOS
                                                                     I
 COMPETITIVE/NON-
 COMPETITIVE AREA
  � Competitive                                     36 HMOS                      32 HMOS
   . Non-Competitive                                 9 HMos                       9 HMOS

 CONTRACTED/NOT
 CONTRACTED SERVICES
  � Contracted                                      14 HMos                      14 HMOS
  . Not Contracted                                  31 HMos                      27 HMOS

 LOCATION
  . 1 state                                         14 HMOS                      14 HMOS
   �   Multiple States                              31 HMOS                      27 HMOS


*Note: See Methociolo gy section, page 2 of this report.




                                                      c-1
                               APPENDIX                       D



             Key Questions: Significant DMTerencesbetween EnmWes and D~enrollees*

                                                      Enrollees                  Dkenrollees

                                                               Mean                         Mean
                                              #of EIMos       Response       # of HMOS**   Response


UiWERST~DiNG         OF HMOS

Did g@ know they could change their minds
about enrolling in the HMO after
application.                                     45               12%            38            18%

Were @ aware they needed a referral from
their primary HMO doctor to see a
specialist.                                      45               11%            40            16%
                                                                         —
Were~t    aware they could only use HMO-
designated doctors and hospitals.                45               4%             40            7%
Did ~t know they had a right to appeal an
HMO’s refusal to provide or pay for
services.                                        45               26%            38          32%

MEDICti    APPUAW’MENZS

When very sick, was ~t able to get a
doctor’s appointment within 1 to 2 days.
                                                 45               7%             36            12%

Usually waited 1 hour or more in the office
to see urirnary
       .        HMO doctor.                      45               5%             37            14%

SMWK!E ACCESS

Primary HMO doctor sometimes failed to
provide needed Me&are services.
                                                 45               4%              40           12%

Primary HMO doctor sometimes failed to
refer to a specialist when needed.
                                                 45               4%              40           12%

Sought out-of-plan care, excluding dental,
routine eye, and emergentl urgent care.
                                                 45               7%              40           14%




                                              D-1

              Key Questions: Significant Differences between Enrollees amd Dkenrollees*

                                                              Enrollees                    Disenrollees

                                                                          Mewx                        Mean
                                                      #of HMO%        Rtqxnlw          # of HMOS**   Response

 Me&cal care received through the HMO
 caused beneficiaries’ health to im~rove.                45               W%               39         40%

 Medical care received through the HMO
 caused beneficiaries’ health to worsen
                                 —.                      45               2%               39          11%
                                                                               .—
 PERSONAL XUZ4TMENT

 Primary HMO doctor sometimes failed to
 take beneficiary’s health complaints
 seriously.                                              45               12%              40         24%

 Most important to primary HMO doctor was
 giving the best rnedcal care possible.                  45               $6%              39         71%

 Most important to primary HMO doctor was
 holding down cost of care.                              45               9%               39         27%

 Most important to the ~      was giving the
 best rnedcal care mssible.                              45               74%              39          57%

 Most important to the ~      was holding
 down cost of care.                                      45               15%              39          37%


*Note: OrdY questionsstadsti~ significant   at ps .05 (two-tailed) are shown.       PwcmWw me rounded.
**S= Methodolo ~ section, page 2 of this    report.




                                                      D-2

